>V
'

Supreme Court, U.S.
FILED

t.

IN THE SUPREME COURT OF THE UNITED STATES

►

.—-a*

JUDY HARMON, PETITIONER
v

v
\

UNITED STATES OF AMERICA

k
OH PETITION FOR WRIT OF CERTIORARI
5

H

TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

H
/

PETITION FOR A WRIT OF CERTIORARI

JUDY HARMON
Pro Se
Reg # 17940-042
33 1/2 Pembroke Road
i

"I

Danbury, CT 06811

JUN 2&2020
OFFICE OF THE CLERK

> ;

rj t

i

QUESTION PRESENTED
Whether there appears to be a disparity within the
Sister Circuits use of jurisdictional powers and
discretion, ruling over Ineffective Assistance of
Counsel claims, causing constitutional violations which

£

may promote undue harm to a defendant facing procedural
default, thus losing rights to an effective direct ...
. appeal?

V

}

II
TABLE OF CONTENTS

i* -

TABLE OF AUTHORITIES

..IV-V

OPINIONS BELOW

1

JURISDICTION 1»

1

e to

STATUTORY PROVISIONS INVOLVE!!

1

STATEMENT,

2

REASONS FOR GRANTING THE PETITION:

8

There is an acknowledged conflict among the Circuit
Courts, as to when a party should be entitled to an
evidentary remand on direct appeal,, for further factual
development on claims of Ineffective Assistance of
counsel.
- 5 Circuits have set precedent to remand on Direct
Appeal when a record of ineffective counsel has not
been properly developed.............................................. .. ..............

.8

- The remaining circuits will not remand on direct
appeal unless an Evidentiary Hearing has not been
awarded on a Habeas Petition and the record is
insufficient. These Circuits have abused their
discretion and stictly follow the Supreme Courts
preference for claims to be channelled through 2255
Habeas Corpus..................................................................................... .

9

- The Fifth Circuit causes further disparities by
selecting an unusual resolution, which is out of sync
with the Sister Circuits and the Supreme Court
decisions.............................................................................................. .

9

CONCLUSION .

13

e « o

ITT

APPENDIX CONTENTS

Appendix A Appendix R -

Unopposed motion to withdraw counsel
Assigned Counsel Correspondence
(Exhibits 1-13)

Appendix C -

Deputy Attorney General,
James M. Cole Memorandum (2014)

IV
(• !*•

Table of Authorities

1.

Rilly-Eko v United States 8 F 3d 111(1993) App

Lexis 27745
2.

Clisby v Jones 960 F 2d 925 (11th Cir 1992) en banc

3.

Jones v United States 582 Fed Appx 845 5th District

(2014)
4.

Massaro v United States 538 U.S. 500, 123 S. Ct

1690, 155 L Ed 2d 714 (2003)
5.

Strickland v Washington 466 US 668 104 S. Ct 2052

80 L. Ed 2d 674, 104 S. Ct 2052 (1984)
6.

United States v Colon Torres 382 F 3d 76 1st Cir

(2004)
7.

United States v Marshall 946 F 3d 591 (District of

Columbia 2019)
8.

United States v Mohammed 693 F 3d 192 District of

Columbia (2011)
9.

United States v Monzoh

U.S. District Lexis 11203

2nd Cir (2001)
10.

United States v Reyes 606 Fed Appx. 177 5th Cir

(2015)

-A -

■w

*

V

OTHER AUTHORITIES

Memorandum - James M. Cole, Deputy Attorney General to
all Federal Prosecutors dated October 14, 2014

"Justice Denied" Americas Continued Neglect of Our
Constitutional

Right to Counsel.

- Report of the National Right to Counsel Committee.
(April 2009).

•i

'

I
PETITION FOR WRIT OF CERTIORARI

OPINIONS BEI.OW
Tie Opinion of the Fifth Circuit Court of Appeals is
reported at No 18-60273 Document 00515358399

JURISDICTION
The Judgment of the Court of Appeals was entered on
3/25/20.Petitioner submits a Writ of Certiorari to
the Supreme Court timely on

6/22/20.

The Jurisdiction

of this Court is invoked under 28 U.S.C §)1254(i)

STATUTORY PROVISIONS INVOLVED
uses, Constitutional Amendments 6, 14
In all criminal prosecutions, the accused shall enjoy
the right to a speedy and public trial

by an impartial

jury of the 'state and district wherein the crime shall
have been committed, which district shall have
previuosly ascertained by law, and to be informed of
the nature and cause of the accusation; to be
confronted with the witness against him; to have
compulsory process for obtaining witnesses in his
favor, and to have Assistance of Counsel for his
defense.

■V -

2
•» *

STATEMENT
There has been a unresolved conflict between
»

courts as to which degree claims of ineffective counsel
shall be reviewed.

Generally circuit court will not

i

hear claims of ineffective counsel on direct appeal,
absent compelling circumstances, leaving no other

i

avenue for a defendant to raise claims except by 2255
i

Habeas Corpus.

i

Before Massaro a conflict was created.
i

District

courts were improperly denying claims of ineffective
counsel that were not argued on direct appeal following
precedent of the 2nd Circuit Billy Eko v United States
8F.3d.Ill,.(1993) US App Lexis 27745.

V

In Massaro v United States 538 U.S. 500, 123 S CT
1690, 155 I. Ed 2d 714(2003) The Supreme Court addressed
some issues causing procedural default and held that "A
Petitioner may bring an ineffective assistance of

f

3'

J-

'S3

counsel claim whether or not the Petitioner could have
raised the claim on direct appeal" id at 509.

,4.-

* a

3

However the issue has not been addressed as to
when both the District Court and Court of Appeals

l*

abuses its discretion, not properly resolving claims of
ineffective counsel.

The defendants'Sixth Amendment

rights are being violated if not afforded an
Evidentiary Hearing at any stage of proceedings when
properly brought before the lower courts,

A defendant

is prejudiced and not offered Due Porcess if one has no
adequate means to be heard as to ineffective claims in
the lower courts, on direct appeal, when the record is
sufficient to permit appellate review; prejudice is
further caused by creating a procedural bar on other
constitutional claims as well.

The issues are now outstanding as to (1) when the
IV

Court of Appeals should hear arguments of ineffective
I

counsel on direct appeal and (2) what powers the Court
of Appeals should use to ensure that a defendant rights
were not violated in District Court by the courts
failure to impose a full and fair opportunity to obtain
an adjudication of unresolved issues with appointed
counsel.

A

i\

Judy Harmon v United States shows abuse of
discretion of the lower Courts, when it erroneously
failed to address the merits of claims of ineffective
assistance counsel due to the following of general rule
channelling a defendant to a 2255 Habeas.

The Petitioner, Judy Harmon has raised several
claims of ineffective assistance at various stages of
litigation and has not been afforded hearing
adjudication or resolution of any claims.

1.

After displeasure with attorney while defendant was

on pretrial release defendant made phone call to
counsel requesting that she withdraw that resulted in
Attached Exhibit #1, Appendix C August 1, 2017 Motion
for Leave to Withdraw.
2.

Counsel then failed to diligently investigate case

statitng there are no non friviolus issues on Direct
Appeal and filed an Anders Brief,

The Court of Appeals

found that she did not address all issues in her brief
and ordered counsel to complete a Supplemental Brief on
issues not addressed, such as conflict between

5

pronouncement and judgment. See Exhibit #2, Appendix C,
February 14, 2019.

3.

During and after filing of counsels Supplemental

Anders Brief ordered by the Court, the Defendant filed
several motions to the Court, her own pro se
Supplemental Brief, and letters dissatisfied with
counsels performance.

(See Appendix C).

Exhibit #3 Letter to Counsel dated September 26, 2018,
Exhibit #4 Emergency pro se Motion to Relief appointed
counsel of her duties; Conflict of Interest October 5,
2018,
Exhibit #5 Motion of Objection to Defense Attorney
McCray letter dated October 10, 2018,
Exhibit #6 Response to Attorney McCray's Anders
Brief/Motion to withdraw as counsel October 23

2018.

Exhibit #7, August 13, 2019.
The 5th Circuit acknowledged that Harmon filed
responses showing other issues of merit.

The Court

then ordered counsel to refile a brief, again, on the
merits, challenging the drug quantity attributed to
Harmon.

j

* *

6

The Court of Appeals did not properly resolve
these matters.

After ordering counsel to refile Appeal

Brief, due to several errors (See Appendix C, Exhibits
8; Failure to comply with Fed R App P. 32(g)(1) and
27(d)(2)(A), 9; Insufficient Brief, 10; Direction on
ECF Filing Rule 31.1, Standard E.l), 11; Incorrectly
Filing Brief under Civil Procedure. The Fifth Circuit
failed to relief counsel despite overwhelming evidence
of deficient performance.

Had the issues been heard, the appeals court would
have become aware that the matters were not properly
addressed in District Court.

The only record in

District Court is an ex parte proceeding, See Exhibit
12 Appendix C. A hearing was conducted without the
defendant and the District Court denies relief of
counsel without addressing Harmons' issues. Also
Exhibit #13 Appendix C; Harmon's request to counsel
inquiring proceeding minutes as to ex parte "withdrawl
as counsel" hearing.

7

District Court denied relief of counsel although
counsel admittedly stated (Exhibit #1 Caption #6)
"After firm attempts to resolve the issues, the
undersigned counsel takes position that she cannot
provide effective representation..."

Although Ineffective Assistance of Counsel claims
!

are best brought first before the District Court
through a motion for new trial or via collateral relief
so as to permit development of a sufficient record for
appealate consideration.

When a District Court fails

to resolve all constitutional claims there stands a
violation of Sixth Amendment rights; Clisby V Jones 960
F 2d 925(11th Cir 1992)(en banc).

In Clisby a

violation occured when the Court failed to resolve
claims in the habeas corpus.

However any claims of

ineffective counsel should be subject to review of
merit regardless of what stage of proceedings it is
argued.

V

8

REASONS FOR GRANTING PETITION
There

is

an acknowledged conflict

among

the

Circuit Courts as to when a party should be entitled to
an evidentary remand for further factual development on
claims of Ineffective Assistance of Counsel.

The 1st, 2nd, 5th & 1.1th

and District of Columbia

Circuits have set precedent and recognized that it is
neceessary to review a defendants claims of Ineffective
United States v Monzon U.S.District Lexis

Counsel.
11203:

2nd Cir (2001);

United States v Colon-Torres

382 F 3d 76 1st Cir (2004);
693 F 3d .

\

United States v Mohammed

192 (2011) District of Columbia; Jones v

United States 582 Fed Appx 845 (2014 5th District) see
memorandum from James M. Cole

Deputy Attorney General

to all Federal Prosecutors (Oct 14, 2014).
alleges

issues

that may be meritorious;

If a claim
a remand is

proper, on direct appeal if the District Court record
is factually undeveloped.

The remaining circuits; have no standing or

9

current precedent as to the review of ineffective
claims

but follow the general rule and preference of

the Supreme Court, that claims of ineffective counsel
should channelled through 2255 Habeas Corpus id. at
910-11(citing Massaro v United States 538 U.S. 500
SCt 1690 155 I

i •

123

Ed Ilk (2003)

The Fifth Circuit uses an unusual resolution
indifference when it choses to remand some cases and
informally resolve others.

In United States v Keyes

606 Fed Appx 177 (5th Cir 2015) the Court States
"although Sixth Amendment claims of ineffective
assistance of counsel are generally resolved on
collateral review, the United States Court of Appeals
for the Fifth Circuit has previously vacated a
conviction and remanded to the district court on direct
appeal where the record demonstrated that counsel had
an actual conflict of interest but was insufficient to
determine whether such conflict adversely impacted the
proceedings."

10

The Fifth Circuit causes further disparties, as it
is the only Court that has attempted to informally
resolve the issues of ineffective counsel by using an
Order to demand counsel to correct, amend, or properly
readdress issues of merit on Direct Appeal.

In both United States v. Harmon and United States
v Reyes,(5th Cir 2015) the court issued an Order
"Motion to withdraw DENIED, and counsel is ORDERED to
file a brief on the Merits See Exhibit #7 Appendix C

In Reyes the court ordered defendants appellate
counsel, which was seperate from trial; to refile brief
and argue ineffective assistance of previous counsel.
In Harmon the defendant was represented at trial and on
appeal by the same counsel.

There were unaddressed

issues on conflict of interest at every stage of
proceedings.

The court used the same informal redress

procedures in both these cases.

The decision shows

prejudice, disparity, and indifference when it failed
to resolve Harmon's issues of ineffective counsel on
Direct Appeal as in Reyes.

• •

11

How the question remains, has the Fifth Circuit
overlooked the protections of the Sixth Amendments when
on direct appeal (1) It failed to rule on Defendants
Ineffective counsel claims when the record was
sufficient or ripe for determination. Or (2) It failed
to remand to District Court when the record on appeal
was insufficient and the District court failed to
properly address claims or develop a record?

Hot affording a defendant proper allocation as to
1 ineffective assistance claims will cause a procedural
bar.

Although the Supreme court in Massaro ruled that

a Defendant can raise claims of ineffective counsel
whether or not it was raised on direct appeal,

The

following problems still lie:

1) A proper record is undeveloped therefore the time it
takes for a 2255 hearing causes prejudice, misconstrued
facts, delay in response by counsel.

12

(2) When counsel is ineffective and fails to raise
constitutional violations caused on the defendant,
those constitutional claims are barred by procedural
default to argue on 2255 Habeas Corpus

thus the

Defendant rights have been grossly violated and the
defendant is left with only alternative to argue
ineffective counsel.

4 defendant should be afforded their rights to
preserve any and all claims of constitional violations
which counsel failed to raise on appeal.

The Circuit

Courts are not in agreement on defendants rights to a
pro se supplemental brief and majority will rarely be
heard.

Thus the defendant has no fair avenue to be

heard with due process except by involuntary force to
resort to a 2255 Habeas Corpus (pro se; without counsel
or advise and lengthy delays) to a district whom
originally failed proper hearing of claims for
Ineffective Counsel.

13

CONCLUSION

Although some circuits have remanded to develop a
proper record such as the District of Columbia, the
1st, 2nd, 5th and 11th Circuits, many will not remand
except on a Habeas petition.

However the United States

court of appeals of the District of District of
Columbia thoroughly addresses this issue and states
"United States court of appeal for the District of
Columbia circuit remands colorable and previously
unexplored claims of ineffective assistance rather than
dismissing in favor of collteral review under 28 (JSCS
2255. The appealate court may do so because the US
Supereme Court has expressed a prefernce, but not
mandated, that ineffective claims be channeled through
collateral proceedings in the District Courts. But this
court has never held that any claim of ineffective
assistance of counsel, no matter how conclusory or
meritless, automatically entitles a party to an
evidentary remand.

14

Majority of the Circuits are unable to rationalize
Supreme Courts "preference".

While it it logical that

not every conclusory or meritless claim should not be
entitled to remand.

The Sister Circuits are left in

confusion on the limitations of channelling dims of
Ineffective Counsel and when a defendants Sixth
Amendment Rights will be evoked.

The Fifth Circuit caused defendant to be subject
to extreme disparity of standards when it set precedent
stating remand to the District Court is proper on
Direct Appeal where the record demonstrated actual
conflict (Reyes 2015), then failed to relieve Harmon of
counsel.

Prejudice was caused; resloving claims by

giving counsel several chances to rectify and correct
deficient performance.

Harmon's appellate counsel is

the same as trial counsel if the circuit court felt
that the conflict could not be heard on appeal, the
case should have been remanded to District Court.

15

Instead, the Court declined to remand when the record
conclusively showed he defendant was entitled to
relief.

Only when the record clearly shows that the

claim is meritless, or when no further factual
development is needed, the court may dispose of the
claim without remanding.*'

United States v Marshall 946

F3d 591 (District of Columbia 2019).

It will take further litigation to solve all the
issues defendants face being represented by less than
adequate counsel.

The Supreme Court has sujected defendants to the
narrow standards noted in Strickland v Washington 466
US 668 (1984).

However the Strickland test does not

protect one from evidence not on the record or
protections from counsel who is incompetent.

Perhaps

the Supreme Court now needs to take a "hard look" at
issues presented in "Justice Denied" Reports of the
Notional Rights to Counsel Committee (2004)

The Committee addresses many issues on the State

r

16

and local level but reflect mirrored issues within the
federal jurisdiction as well.

The Committee noted “the

Strickland two-pronged test for determining ineffective
assistance of counsel has been harshly criticized,
proven to be difficult to apply, and has led to
appellate courts affirming convictions that should be
unacceptable in a society that genuinely values due
process of law.

In addition, the Strickland standard

has made it possible during more than three decades for
state and local jurisdictions to underfund indigent
defense services, as this report and many others have
amply demonstrated.

The Committee, therefore, calls

for the Strickland standard to be replaced by a
straightforward test: has the accused received
“competent" and diligent" representation, as required
by the rules of professional conduct adopted by the
legal profession?

When defense counsel has failed to

meet this requirement, thereby justifying discipline
under professional conduct rules, surely defendants
have not received the effective assistance of counsel
under the Sixth Amendment.

17

The Committee goes on to say "...for counsel "to
bring to bear such skill and knowledge as well render
the trial a reliable adversarial testing process.
"Competence" and "skill and knowledge" is the language
of the rules of professional conduct.

A.s in Justice

Marshall's dissent in Strickland, "you cannot determine
prejudice to the defendant because the evidence of
injury to the defendant may be missing from the record
because of the incompetence of defense counsel".
("Justice Denied", pg 212-213).

These discussions are noted in the commentary from
•the Committees Recommendation 22, which states:
Defense lawyers who provide representation in appellate
and post conviction cases organizations that advocate
as amicus curiae should urge the United States Supreme
Court and state Supreme Courts to adopt a test for
ineffective assistance of counsel that is substantially
consistent with the ethical obligation of defense
counsel to render competent and diligent representation

18

although Harmon is confident she can pass the
Strickland test there is a high questionability if the
Strickland test should be amended to consider the
training, competency and actual performance of counsel,
taking into consideration that ineffective counsel can
bar a defendant from developing a proper record which
would show prejudice.

Taking all facts into

consideration this Court should undoubtedly, find that
had.Harmon had sufficient representation the proceeding
would have been different.

The Petitioner Harmon now request Certiorari to
clarify the Supreme Court '“preference to challenge
claim in a 2255 Habeas and address other issues herein
to set precedent for the lower courts; when one should
remand for proper factual development on the record as
to ineffective assistance of counsel claims, and how
should one safeguard protections of the defendants
Sixth Amendment Rights?

